NO.
IN THE

SUPREME COURT OF THE UNITED STATES

Elvis Basic, Petitioner
v.
United States of America, Respondent
ON PETITION FOR WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Rule 39 of the Rules of the Supreme Court of the United States, Petitioner Elvis
Basic, by and through his CJA attorney, Chad R. McCabe, respectfully requests leave to file a
petition for writ of certiorari in forma pauperis.

The United States Court of Appeals for the Eighth Circuit appointed attorney Chad R.
McCabe to handle the appeal in the above entitled matter on February 21,2020. A copy of the Order
appointing Chad R. McCabe is attached hereto as Exhibit A.

Respectfully submitted on this 20" day of November, 2020.

/si Chad R McCabe
CHAD R. MCCABE
419 Riverwood Dr., Suite 104
Bismarck, ND 58504
(701) 222-2500

N.D.State Bar ID No. 05474
Attorney for Petitioner
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-2165
United States of America
Appellee
v.
Elvis Basic

Appellant

 

Appeal from U.S. District Court for the District of North Dakota - Bismarck
(1:18-cr-00125-DLH-1)

 

ORDER
The motion of Ms. Bobbi Weiler for leave to withdraw as appellant’s appointed attorney
is granted, and Mr. Chad R. McCabe is appointed under the provisions of Criminal Justice Act to
represent appellant. As the case is fully briefed, counsel’s appointment is for the purpose of
presenting oral argument and making any post-judgment filings which might be required.
Information regarding the CJA appointment and vouchering process in eVoucher will be emailed

to counsel shortly.

February 21, 2020

Order Entered under Rule 27A(a):
Clerk, U.S. Court of Appeals, Eighth Circuit.

/si Michael E. Gans
EXHIBIT A

Appellate Case: 19-2165 Page:1 Date Filed: 02/21/2020 Entry 1D: 4883862
